2311 Douglas Street

@OCKLE

Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.
LENIN LUGO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 6th day of January, 2020, send out
from Omaha, NE | package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

ROY A. KATRIEL STEPHEN J. STANLEY

Counsel of Record 411E. Madison Street,
THE KATRIEL Suite 1100

LAW FIRM, P.C. Tampa, Florida 33602
2262 Carmel Valley Road,

Suite 201 Counsel for Petitioner

Del Mar, California 92014
(619) 363-3333
rak@katriellaw.com

Subscribed and sworn to before me this 6th day of January, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

tic, 6 ble Qdeowh. Che

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 39291
SERVICE LIST

Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
